                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




AUDIT REPORT
Implementation of Recommendations from
the January 2012 Independent Consultant's
Review of the Department of Energy Loan and
Loan Guarantee Portfolio




 DOE/IG-0909                         May 2014
                                 Department of Energy
                                   Washington, DC 20585

                                          May 7, 2014


MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Implementation of
                         Recommendations from the January 2012 Independent Consultant's
                         Review of the Department of Energy Loan and Loan Guarantee
                         Portfolio"

BACKGROUND

The Department of Energy's Loan Programs Office (Program) was originally created to
accelerate the domestic commercial deployment of innovative and advanced clean energy
technologies at a scale sufficient to contribute to the achievement of our national clean energy
objectives. The Program executes this mission by guaranteeing loans to eligible clean energy
projects and by providing direct loans to eligible manufacturers of advanced technology vehicles
and components. As of April 2014, the Program oversaw an approximately $30 billion portfolio
of 31 loans and loan guarantees.

In October 2011, the White House Chief of Staff requested an independent review of the
Department's loan and loan guarantee programs for alternative energy projects shortly after
Solyndra, Inc., a company that had received a loan guarantee from the Department, filed for
bankruptcy. Because the requested independent review was to focus on the present and future of
the Program, it specifically excluded from its scope evaluation of loans to companies that had
recently filed for bankruptcy protection, including Solyndra, Inc. and Beacon Power, LLC. The
independent consultant's report, issued in January 2012, identified areas for Program
improvement and provided 12 overall recommendations aimed at enhancing the oversight and
management of the Program.

We received a complaint alleging that the Program had not fully implemented the consultant's
recommendations related to strengthening and restructuring internal oversight. In response, we
initiated this audit to determine whether the Department adequately addressed all findings and
recommendations from the independent consultant's report.

RESULTS OF AUDIT

The allegations were not substantiated. Overall, we noted that the Department appeared to have
taken the consultant's recommendations seriously, and that related actions were generally
responsive to the recommendations. Specifically, the Department had completed actions to
address 4 of the report's 12 recommendations and initiated actions in response to the remaining 8
recommendations. While the Department had made substantial progress in implementing
recommended improvements, we were unable to make a determination as to whether these
efforts would ultimately be fully effective to address all of the issues identified by the consultant,
because a number of actions, such as clarifying authorities, establishing an external advisory
board, and incorporating lessons learned were still ongoing.

                             Specific Responses to Recommendations

We found that while the Department had not always implemented actions precisely as
recommended by the independent consultant, it had considered the specific recommendations
and had taken alternative approaches to addressing noted problems. Further, the Department
provided its rationale supporting the alternative steps. For example, the Department had created
a Risk Management Division, an action supporting the consultant's recommendation to
strengthen and restructure internal oversight. However, it had not established a separate
reporting structure to senior Department management as suggested by the consultant. Officials
indicated that the consultant's suggested reporting structure was considered, but the Department
concluded that it would not be effective and that the current reporting structure was comparable
to other Federal agencies with similar loan programs.

While actions taken by the Department were generally responsive to recommendations in the
consultant's report, our review identified additional opportunities not specified in the consultant's
report to enhance management and oversight, and to ensure transparency and accountability. For
example, we found that the Program had not finalized changes in policies and procedures
necessary to address all of the consultant's recommendations. We also noted that a formal
adjudication process for the resolution of professional differences of opinion did not exist.
Furthermore, although no negative impact was identified, we concluded that a potential conflict
existed regarding membership on the Program's Risk Committee. The Department took
corrective action to eliminate the potential conflict of interest after we brought the matter to its
attention.

                                        Contributing Factors

Despite generally favorable findings, we noted that the Department had not developed a written
and comprehensive action plan for implementing the report's recommendations. Specifically, the
Program had not identified specific actions to be implemented, assigned responsibilities for
implementation, or developed milestones or goals to track completion. Program officials stated
that unlike recommendations made by the Office of Inspector General and the U.S. Government
Accountability Office, which are statutorily required to be tracked and implemented,
recommendations from independent reviews are not typically tracked, and that no such statutory
requirement to implement exists.

Further, we noted that several of the areas for improvement identified by the consultant, such as
the need for a comprehensive records management system, a lessons learned process, and
adequate staffing, were identified in previous Office of Inspector General reviews. In particular,
in our report The Department of Energy's Loan Guarantee Program for Clean Energy

                                                  2
Technologies (DOE/IG-0849, March 2011) we found that the Program had not adopted a records
management system that imposed structure, consistency and discipline in the development and
retention of loan documentation. In addition, we found that the Program had not updated its
policies and procedures to include improvements in its loan processing. In March 2013, the
Program certified that all actions regarding the adoption of a records management system had
been completed; however, action items to address the update of its policies and procedures were
still pending at the time of our current review. Finally, the need to ensure sufficient staffing was
also identified in our report Loan Guarantees for Innovative Energy Technologies, (DOE/IG-
0777, September 2007).

                                           Path Forward

With approximately $43 billion in remaining loan and loan guarantee authority and about $30
billion in assets to be monitored, we believe the Department has an opportunity to accelerate the
implementation of needed program enhancements and internal controls designed to increase the
likelihood of successful Program outcomes. In this context, fully addressing the issues raised by
the consultant and other independent organizations should reduce the overall risk to the loan
portfolio. Thus, we have made several recommendations aimed at improving the Department's
management of the Program.

MANAGEMENT REACTION

Management generally concurred with the report's recommendations and indicated that it would
take or had already implemented actions to address them. We consider management's comments
responsive to the report's recommendations.

However, management expressed concern that we had understated its progress in implementing
the consultant's recommendations. In particular, management stated that, in its view, 6 of the 12
independent consultant's recommendations had been fully implemented. Management stated
that, except for memorializing its policies and procedures in writing, it had implemented
recommendations related to clarifying authorities and timely reporting of critical information as
fully as it intended. We agree that the Department has taken some actions in response to these
recommendations. However, until procedures and processes are finalized and implemented,
there is no assurance that levels of authority will not be exceeded or management will have the
data needed to make informed decisions in a timely manner.

Management's official comments and our responses are summarized in the body of the report.
Their official comments are included in Appendix 4. Management also provided additional
technical comments, which are addressed in the body of the report.

cc: Deputy Secretary
    Chief of Staff
    Executive Director, Loan Programs Office

Attachment



                                                 3
AUDIT REPORT ON IMPLEMENTATION OF
RECOMMENDATIONS FROM THE JANUARY 2012
INDEPENDENT CONSULTANT'S REVIEW OF THE
DEPARTMENT OF ENERGY LOAN AND LOAN GUARANTEE
PORTFOLIO

TABLE OF CONTENTS

Implementation of Independent Consultant Recommendations

Details of Findings ...........................................................................................................................1

Recommendations ............................................................................................................................6

Management Response and Auditor Comments ..............................................................................7

Appendices

     1. Status of Implementation of Recommendations ..................................................................8

     2. Objective, Scope and Methodology ...................................................................................10

     3. Prior Reports ......................................................................................................................12

     4. Management Comments ....................................................................................................14
IMPLEMENTATION OF RECOMMENDATIONS FROM THE
JANUARY 2012 INDEPENDENT CONSULTANT'S REVIEW OF
THE DEPARTMENT OF ENERGY LOAN AND LOAN
GUARANTEE PORTFOLIO

DETAILS OF FINDING
The Department of Energy's (Department) Loan Programs Office (Program) was originally
created to accelerate the domestic commercial deployment of innovative and advanced clean
energy technologies at a scale sufficient to contribute to the achievement of our national clean
energy objectives. The Program executes this mission by guaranteeing loans to eligible clean
energy projects and by providing direct loans to eligible manufacturers of advanced technology
vehicles and components. As of April 2014, there was approximately $43 billion in remaining
direct loan and loan guarantee authority and a portfolio of about $30 billion to be monitored.
In October 2011, the White House Chief of Staff requested an independent review of the
Department's loan and loan guarantee programs for alternative energy projects shortly after
Solyndra, Inc., a company that had received a loan guarantee from the Department, filed for
bankruptcy. The purpose of the review was to report on the status of the portfolio and make
recommendations for improvement. In particular, the independent consultant conducting the
review was tasked with making recommendations for enhancing the future monitoring,
management, and oversight of the loan and loan guarantee programs. In addition, the
independent consultant was asked to make recommendations, pertaining to early-warning
systems to identify and mitigate potential problems with individual loans or loan guarantees.

The independent consultant's report, released in January 2012, identified a number of areas for
improvement. In particular, the report noted that the Department needed to:

     •   Strengthen and restructure internal oversight of the Program, including creating an
         independent reporting structure for risk management, revise the functions of the
         internal committees, and establish an external advisory board;

     •   Clarify authorities and accountabilities for managers as individuals in the Program,
         including defining "material" actions and "routine/non-routine" waivers of loan
         provisions;

     •   Proactively protect the taxpayers interest and improve reporting to the public;

     •   Establish and effectively communicate clear goals for portfolio management of the
         Program, engage in long-range strategic planning, provide long-term funding, and fill
         key management positions in the Program; and

     •   Develop an early warning system to identify and mitigate potential concerns in the
         Program, including a comprehensive management information reporting system and
         incorporate lessons learned into policies, procedures, reporting, and decision-making.




Details of Finding                                                                         Page 1
To address these issues, the independent consultant's report made 12 overall recommendations
that included a number of specific actions for implementation aimed at enhancing the oversight
and management of the Program.

We noted that several of the areas for improvement, such as the need for a comprehensive
records management system, a lessons learned process, and adequate staffing, were identified in
previous Office of Inspector General reviews. In particular, in our report The Department of
Energy's Loan Guarantee Program for Clean Energy Technologies (DOE/IG-0849, March
2011), we found that the Program had not adopted a records management system that imposed
structure, consistency and discipline in the development and retention of loan documentation.
The report noted that a lack of contemporaneous records could adversely affect the Department's
ability to manage loans. In addition, the review found that the Program had not updated its
policies and procedures to include improvements in its loan processing to provide for the
consistent use of lessons learned. In March 2013, the Program certified that all actions regarding
the adoption of a records management system had been completed; however, action items to
address the update of its policies and procedures were still pending at the time of our current
review. Finally, the need to ensure sufficient staffing was also identified in our report Loan
Guarantees for Innovative Energy Technologies, (DOE/IG-0777, September 2007).

We received a complaint alleging that the Department had not fully implemented the
recommendation related to strengthening and restructuring internal oversight. Given the
importance of the Program and the significant amount of funding, we initiated this audit to
determine whether the Program adequately addressed all findings and recommendations from the
independent consultant's report.

Status of Implementation

We found that the Department had taken actions that were generally responsive to the
consultant's recommendations. Specifically, the Department had completed actions to address
four of the report's twelve recommendations and initiated actions in response to the remaining
eight recommendations. We found, however, that the Department had not always implemented
actions as precisely as recommended by the independent consultant. Instead, it considered all
specific recommended actions and had, based on supporting rationale, chosen alternative
approaches. Finally, our review identified additional opportunities for improving the
management and oversight of the Program.

              Actions to Address the Independent Consultant's Recommendations

We found that the Department had initiated a number of actions to address the January 2012
independent consultant's recommendations. For example, the Department had filled key
management positions such as the Executive Director and Director of Risk Management. In
addition, the Program created a detailed Strategic and Operating Plan for its Portfolio
Management Division, added upgrades and capabilities to its loan management information
system, and adopted a lessons learned process for one of its divisions.




Details of Finding                                                                        Page 2
We summarized the status of the Department's implementation of the 12 overall
recommendations in Appendix 1, and determined that actions to implement the recommendations
were either complete or ongoing for all of the recommendations. Our review found that the
Department had completed actions to:

     •   Provide long-term funding;

     •   Fill key positions in management with experienced professionals;

     •   Establish and effectively communicate clear management goals; and

     •   Engage in long-range strategic planning.

While the Department had initiated a number of actions, we consider its efforts to address the
remaining eight recommendations to be ongoing because policies, procedures, and other plans
and efforts were not yet complete and in place. Ongoing actions include:

     • Clarifying authorities and accountabilities of managers;

     • Proactively protecting the taxpayers' interest;

     • Improving public reporting;

     • Restructuring internal oversight;

     • Establishing an external oversight advisory board;

     • Creating a comprehensive management information reporting system;

     • Establishing a protocol for timely reporting of critical information; and

     • Incorporating lessons learned into policies, procedures, reporting, and decision making.

With regard to the complaint, we found that the Department considered each of the
recommendations, implemented responsive actions in many cases, and had an explanation as to
why other actions were not completed as envisioned in the consultant's report. For example, the
Department created a new, separate risk management organization with primary functions as
outlined in the consultant's report. Also, the Department hired an experienced risk manager to
lead the division. Although certain recommendations such as creating direct reporting authority
from the Risk Management Director to the Deputy Secretary had not been implemented, officials
indicated that the decision regarding the most effective reporting structure had been given
substantial consideration before making a determination that the recommended structure would
not be effective and the existing structure would be maintained. Officials also stated that this
structure it had in place was comparable to other Federal agencies with similar loan programs.
This explanation appeared reasonable given that we contacted two Federal agencies (Small
Business Administration and Export-Import Bank) and confirmed that their risk management


Details of Finding                                                                       Page 3
functions did not have a separate reporting structure. Finally, while the consultant's report
recommended abolishing the Program's Risk and Credit Committees once the Risk Management
Division was in place, Department officials advised that they continued to utilize these
committees to ensure loans were fully vetted and as a system of checks-and-balances.

While we recognize the Department has made substantial progress in addressing the consultant's
recommendations, we were unable to make a determination as to whether these efforts will be
fully effective to alleviate all the issues identified by the consultant because a number of actions,
such as clarifying authorities, establishing an external advisory board, and incorporating lessons
learned, were still ongoing.

                                    Management and Oversight

Our review identified additional opportunities for improving the management and oversight of
the Program. Specifically, we noted the Department:

     • Had not finalized changes in policies and procedures necessary to address the report's
       recommendations. At the time of our review, almost 2 years after the consultant's report
       was issued, revisions to the Program's overall policy manual were not yet finalized.
       Additionally, we reviewed a draft of the Program's revised overall policy manual and
       determined that the Program had removed many of the detailed procedures. Officials
       indicated that the detailed procedures would be incorporated into division level policies.
       However, we noted that a number of division specific procedures were either still in
       draft or had not yet been developed. In addition, our review of the draft policy also
       found that some aspects of the loan management process, such as defining what actions
       are "material," whether waivers of loan provisions were "routine" or "non-routine," and
       establishment of clear lines of authority remained unclear. The need to define these
       terms was identified in the independent consultant's report. While the Program has
       taken several actions as part of its effort to address the recommendation related to
       clarifying authorities and accountabilities of managers, finalizing division specific
       policies and procedures and defining certain actions is crucial in implementing the
       recommendations so that the entire organization understands how materiality of an event
       is determined, the types of routine and non-routine waivers and the lines of authority.
       Additionally, the Office of Management and Budget (OMB) revised its policy for
       Federal credit programs in January 2013 and emphasized the importance of risk
       management. In particular, OMB stated individuals engaged in risk management should
       have well-defined roles and clear reporting lines to senior officials that provide for
       sufficient independence and ability to raise issues that may not have been identified by
       Program management.

     • Had not developed a formal adjudication process for resolving differences of
       professional opinion between divisions. Given that one of the duties of the Risk
       Management Division is to perform compliance reviews of other divisions, a well-
       defined process for resolving professional differences of opinion is essential. During
       our audit, the Program's Executive Director initiated an internal risk management task




Details of Finding                                                                           Page 4
        force to review functions within the Risk Management Division, an effort which resulted
        in recommendations to establish an adjudication process.

     • Had created a potential conflict-of-interest by appointing the Director of Portfolio
       Management as a member of the Program's Risk Committee. One of the committee's
       functions is to evaluate risks associated with individual loans monitored by the Portfolio
       Management Division and make recommendations for changes in risk evaluations as
       appropriate. The loans in question are presented to the committee by the Portfolio
       Management Division. However, the Director of the Portfolio Management Division
       was a voting member of the Risk Committee and had the authority to accept or decline
       the committee's recommendations on loans that had been submitted for review by the
       Director's division. In contrast, the Program's Project Review Committee, which makes
       recommendations regarding the readiness of a loan to be considered for conditional loan
       approval, did not include the Director of the Origination Division as a participating
       voting member, nor did the Director have the authority to accept or decline the
       committee's recommendations. We concluded that the Risk Committee, as structured at
       the time of our audit, had not initially allowed for a fully independent evaluation process
       to occur. To its credit, as a result of our audit, management revised the charter for the
       Risk Committee and removed the Director of Portfolio Management as a committee
       member.

Accountability for Implementation

Timely finalization of policies and procedures has been adversely impacted because the
Department had not developed a written and comprehensive action plan for implementing the
report's recommendations. Specifically, we found that the Program had not identified specific
actions to be implemented, assigned responsibilities for implementation, or developed milestones
or goals to track completion. Without an action plan, the Department cannot ensure that all
actions are fully and timely implemented and that individuals responsible for implementing the
actions can be held accountable. However, Program officials stated that they do not typically
track recommendations from independent reviews. Nevertheless, in March 2012, the Program,
in conjunction with senior Department leadership, identified which recommendations would and
would not be implemented. However, neither senior Department leadership nor the Program
established an oversight mechanism to adequately track the progress of implementation.

With approximately $43 billion in remaining loan and loan guarantee authority and about $30
billion in assets to be monitored, we believe the Department has an opportunity to implement
needed Program enhancements and internal controls designed to increase the likelihood of
successful Program outcome. In addition, we believe that, if the Department does not take
timely actions to address the issues we identified, the achievement of its goals could be
jeopardized. Specifically, without a clear definition of authorities and a path to finalize
implementation of the recommendations, the Program cannot ensure accountability and
transparency in its operations. Further, by fully addressing the issues raised by the consultant
and other independent organizations, overall risk to the loan portfolio, moving forward, should
be reduced.




Details of Finding                                                                        Page 5
RECOMMENDATIONS
To address the issues identified in our report, we recommend that the Executive Director of the
Loan Programs Office take the following actions to improve the management and oversight of
the Program:

     1. Create an action plan with milestones and planned activities for addressing of the
        remaining recommendations from the independent consultant's report;

     2. Ensure that detailed procedures for activities within the Program and its divisions are
        developed and implemented. These policies should ensure clarity in authorities for
        certain transactions, including defining material actions and routine or non-routine
        requests for waivers of loan provisions; and,

     3. Implement a formal adjudication process for resolving differences of professional
        opinion between divisions.




Recommendations                                                                           Page 6
MANAGEMENT RESPONSE AND AUDITOR COMMENTS
Management generally concurred with the report's recommendations and indicated that it would
take or had already implemented actions to address them. Management stated that it had created
an action plan with milestones and planned activities to complete the steps required to address
the issues raised in the consultant's report. In addition, management stated it was in the process
of finalizing detailed procedures for activities within the Program. Further, although it does not
believe that additional specific guidance on materiality was necessary, management indicated
that it can further develop a process for making a determination on materiality to ensure that the
results are documented. Finally, management stated that it would evaluate whether a formal
adjudication process was warranted and indicated that it would work to ensure that procedures on
documentation requirements evidencing resolution of differing opinions were developed.
We consider management's comments responsive to our recommendations.
Management did not fully agree with several of the report's findings and assertions. In
particular, management stated that, in its view, 6 of the 12 independent consultant's
recommendations had been fully implemented. Management stated that, except for
memorializing its policies and procedures in writing, it had implemented recommendations
related to clarifying authorities and timely reporting of critical information as fully as it intended.
In addition, management stated that the implementation of the recommendation regarding
proactively protecting the taxpayers' interest always would be, by its very nature, ongoing and no
additional specific action items would be taken to address this recommendation. We agree that
the Department has taken some actions in response to these recommendations. However, until
procedures and processes are finalized and implemented, we consider the recommendations
ongoing. Without formal, written policies and procedures, the Department cannot ensure that
levels of authority will not be exceeded or management will have the data needed to make
informed decisions in a timely manner.
Management's official comments are included in Appendix 4. Management also provided
technical comments that have been addressed in the body of the report, where appropriate.




Management Response and Auditor Comments                                                      Page 7
                                                                           APPENDIX 1

       STATUS OF IMPLEMENTATION OF RECOMMENDATIONS
         FROM THE INDEPENDENT CONSULTANT'S REPORT
             Recommendations to Improve Monitoring, Management and Oversight


        Recommendation                Status                        Details

Provide Long-Term Funding for        Complete   Loan Programs Office (Program) officials
the Programs.                                   created a detailed FY2015 budget request, and
                                                have estimated funding needs through Fiscal
                                                Year 2019.

Fill Key Positions in Management     Complete   Key positions, including Executive Director
with Experienced Professionals.                 and Director of Risk Management have been
                                                filled.

Clarify Authorities and              Ongoing    The Program has taken several actions to
Accountabilities of Managers.                   clarify authorities, however, some efforts such
                                                as creating division-specific policies and
                                                procedures still need to be completed for full
                                                implementation of the recommendation.

Establish and Effectively            Complete   The Program has created specific, measurable
Communicate Clear Goals for                     performance standards for administration of
Management.                                     the loan programs. Also, the Program had
                                                established delegations of authority,
                                                developed position descriptions for managers,
                                                and created a Strategic and Operating plan for
                                                its Portfolio Management Division.

Proactively Protect the Taxpayers'   Ongoing    Actions such as developing detailed division
Interest.                                       policies and procedures to implement the
                                                recommendation had been taken, but had not
                                                yet been completed. Further, the Program
                                                was in the process of implementing a lessons
                                                learned process.

Engage in Long-Range Strategic       Complete   The Program had created a 3-year Strategic
Planning for the Programs.                      and Operating Plan for its Portfolio
                                                Management Division which included
                                                strategic goals for activities such as human
                                                capital management that extended beyond
                                                three years, and called for future evaluations
                                                based on changes in the Program's mission.



Status of Implementation of Recommendations                                             Page 8
                                                                              APPENDIX 1

Improve public reporting.            Ongoing    The Program had made revisions to its
                                                website, but was still in the process of
                                                completing some public reports.

Strengthen and Restructure           Ongoing    Internal oversight was not completely
Internal Oversight of the                       implemented as prescribed in the report;
Programs.                                       however, most aspects of the risk
                                                management group were established in
                                                accordance with the report. Additionally, the
                                                Program was in the process of evaluating and
                                                implementing recommendations from a self-
                                                initiated risk task force.

Establish external oversight.        Ongoing    The Program was in the process of
                                                implementing an external advisory board.



                          Recommendations for Early Warning Systems


        Recommendation                Status                        Details

Create a Comprehensive               Ongoing    The Program made improvements to the
Management Information                          functionality and capability of its existing
Reporting System.                               reporting system, and was finishing phase 2 of
                                                a four-phase plan.

Establish a Protocol for Timely      Ongoing    The Program was working to improve timely
Reporting of Critical Information.              reporting through both its reporting system
                                                and enhanced policies and procedures.

Incorporate Lessons Learned Into     Ongoing    The Program had initiated a lessons learned
Policies, Procedures, Reporting,                process for one of its divisions, and was in the
and Decision-Making.                            process of completing policies and procedures
                                                for the remainder of the Program.




Status of Implementation of Recommendations                                                Page 9
                                                                                APPENDIX 2


                   OBJECTIVE, SCOPE AND METHODOLOGY

Objective

To determine whether the Department of Energy's (Department) Loan Programs Office
(Program) adequately addressed all findings and recommendations from the independent
consultant's report.

Scope

We conducted the audit from June 2013 to April 2014, at Department Headquarters in
Washington, DC. The audit was conducted under the Office of Inspector General Project
Number A13PT044.

Methodology

To accomplish the audit objective, we:

     •    Reviewed and summarized findings from the Report of the Independent Consultant's
          Review with Respect to the Department of Energy Loan and Loan Guarantee Portfolio
          (January 31, 2012);

     •    Reviewed applicable Federal and Departmental regulations related to the Program;

     •    Reviewed Program policies, procedures, planning documents, and other documents
          related to the implementation of recommendations from the independent report;

     •    Interviewed Program officials to determine actions taken in response to the report;
          and,

     •    Assessed the status of implementation of each recommendation from the independent
          report.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed internal
controls and compliance with laws and regulations to the extent necessary to satisfy the audit
objective. We assessed performance measures in accordance with the GPRA Modernization Act
of 2010 and concluded that the Department had established performance measures related to the
Loan Guarantee Program. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. Finally,



Objective, Scope and Methodology                                                           Page 10
                                                                             APPENDIX 2

we did not rely on computer-processed data to achieve our audit objective and, therefore, did not
conduct a full reliability assessment of computer-processed data.

An exit conference was held with the Department's Loan Programs officials on May 5, 2014.




Objective, Scope and Methodology                                                        Page 11
                                                                             APPENDIX 3

                                    PRIOR REPORTS

   •   Audit Report on The Department of Energy's Loan Guarantee to Abound Solar
       Manufacturing, LLC, (DOE/IG-0907, April 2014). This audit identified several
       weaknesses in the Department of Energy's administration of the loan guarantee to
       Abound Solar Manufacturing, LLC. Specifically, the audit found that the Loan
       Guarantee Program had not consulted with the Credit Review Board concerning a
       material change in the credit subsidy subsequent to its recommendation to approve the
       loan. In addition, the report found that the Loan Guarantee Program had not resolved the
       conflicting opinions of its advisors regarding the company's ability to overcome technical
       issues or adequately documented the assumptions in the financial modeling used to
       support loan approval and monitoring. Further, the report noted that ongoing, formal
       financial and industrial analyses had not been conducted as part of monitoring activities
       for the loan.

   •   Audit Report on Special Report: Inquiry into the Procurement of Law Firm Services and
       Management of Law Firm-Disclosed Organizational Conflicts of Interest by the
       Department of Energy's Loan Programs Office, (OAS-RA-12-14, August 2012). This
       audit identified opportunities to improve transparency over the Loan Programs Office's
       management of organizational conflict of interest waiver requests. Specifically, the
       review noted that the Loan Programs Office had not deployed a tracking system for
       managing law firm waiver requests and had not documented, in an organized system of
       records, the rationale for denying or approving waiver requests.

   •   Audit Report on The Department of Energy's Loan Guarantee Program for Clean Energy
       Technologies, (DOE/IG-0849, March 2011). This audit revealed that the Loan Guarantee
       Program could not always demonstrate, through systematically organized records, how it
       resolved or mitigated relevant risks prior to granting loan guarantees. Decision
       documents summarizing the process did not always describe the actions taken by officials
       to address, mitigate and/or resolve risks. In addition, loan origination files were not
       maintained in the Loan Guarantee Program's official electronic information repository,
       which according to Federal regulations was to contain key documentation to support
       actions as part of the loan guarantee process. The report noted that the Loan Guarantee
       Program had not adopted a records management system that imposed structure,
       consistency and discipline in the development and retention of loan documentation.

   •   Audit Report on The Department of Energy's Loan Guarantee Program for Innovative
       Energy Technologies, (DOE/IG-0812, February 2009). This report found that while the
       Loan Guarantee Program had developed and implemented some key programmatic
       safeguards, it had not completed a control structure necessary to award loan guarantees
       and to monitor associated projects. Specifically, the review found that the Loan
       Guarantee Program had not finalized policies and procedures, formally documented
       portions of its applicant reviews, and formalized procedures for disbursing loan proceeds.




Prior Reports                                                                           Page 12
                                                                          APPENDIX 3

   •   Audit Report on Loan Guarantees for Innovative Energy Technologies, (DOE/IG-0777,
       September 2007). This report concluded that there were a number of steps that should
       have been taken to foster the success of the Loan Guarantee Program. These included
       finalizing a staffing plan, developing risk mitigation strategies, implementing and
       executing a monitoring system, and promulgating liquidation procedures.




Prior Reports                                                                       Page 13
                                            APPENDIX 4

                      MANAGEMENT COMMENTS




Management Comments                              Page 14
                      APPENDIX 4




Management Comments        Page 15
                                        FEEDBACK
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
